UNITED STATES DEPARTMENT OF AGRICULTURE

      OFFICE OF INSPECTOR GENERAL




      STATEMENT OF ROGER C. VIADERO

           INSPECTOR GENERAL



                 Before the

       U.S. HOUSE OF REPRESENTATIVES
     COMMITTEE ON GOVERNMENT REFORM


               February 10, 1999
                         TESTIMONY OF
                       ROGER C. VIADERO
                      INSPECTOR GENERAL
               U.S. DEPARTMENT OF AGRICULTURE
           BEFORE THE U.S. HOUSE OF REPRESENTATIVES
              COMMITTEE ON GOVERNMENT REFORM
                       FEBRUARY 10, 1999

Thank you, Mr. Chairman and members of the committee. I am Roger
Viadero, Inspector General for the U.S. Department of Agriculture
(USDA). Thank you for inviting me to this hearing on Government
programs at serious risk for waste, fraud, and abuse. Combating such
activities is one of the primary concerns of every inspector general, and
one I take very seriously.

The USDA Office of Inspector General (OIG) is authorized to audit and
investigate the administration and enforcement of all USDA programs
and related laws and regulation. We have identified a number of
management and performance issues facing USDA, including financial
management, Federal crop insurance, Rural Rental Housing, and child
care programs. I know you are particularly interested today in
discussing problems we have found in the area of food safety and in
the Food Stamp Program.




                             FOOD SAFETY

Food safety is a major concern and priority for USDA OIG. In
everything we do, the well-being of people is paramount. The quality
and wholesomeness of the Nation’s food supply, from production to the
consumer, are of special concern to OIG. Investigations of any criminal
activity that poses a threat to the health and safety of the public remain
our highest priority. Cases involving food safety take precedence; if
need be, we stop everything else.

                                    1
Food safety and quality issues have received considerable attention
over the past few years. USDA’s Food Safety and Inspection Service
(FSIS) has begun to implement Hazard Analysis and Critical Control
Points (HACCP) to improve its inspection process. HACCP is a
systematic approach to food safety, wholesomeness, and prevention of
economic adulteration. It is intended to identify the critical points in
food processing and establish controls to prevent adulteration caused
by microbes, chemicals, or physical hazards.

In January 1998, FSIS implemented the first phase of HACCP in over
300 large plants that slaughter and/or process meat and poultry. These
plants were required to have HACCP in place and to meet the
performance standards regarding salmonella. By last month, all plants
were required to have in place written standard operating procedures
for sanitation, and slaughter plants were required to begin testing for
generic E. coli. As of January 25, with phase two, more than 2,800
small meat and poultry facilities with between 10 and 500 employees are
required to implement science-based pathogen reduction and HACCP
plans.

FSIS, in addition to its concentrated in-plant inspection and oversight
responsibility, maintains an active in-house compliance staff to enforce
food safety requirements. This function is carried out by FSIS’ District
Enforcement Operations. Its objective is to prevent and detect
violations of meat and poultry inspection law through systematic
surveillance and education of persons and firms in the distribution
chain of meat and poultry products. In late January, we completed our
fieldwork of FSIS’ compliance function. While we are still analyzing our
work, our preliminary results indicate that District Enforcement
Operations were generally being carried out in accordance with FSIS
regulations. However, we will recommend that FSIS improve its
controls to monitor the status of complaints and improve its
coordination on investigative issues with OIG.


                                    2
Recently, we took our first step to review the implementation of the
HACCP systems in meat and poultry establishments. In December,
auditors began to assess FSIS controls to ensure that meat and poultry
plants have implemented and maintained Sanitation Standard Operating
Procedures (SSOP), which represents the initial phase of FSIS’ pre-
HACCP implementation. The SSOP regulations require that each
establishment develop and implement written sanitation standard
operating procedures to prevent direct contamination or adulteration of
products. We are now beginning a nationwide review of HACCP to
determine if it is being implemented as prescribed.

The meat and poultry industry plays a critical role in determining the
ultimate outcome for overall food safety; therefore, we plan to assess
the industry’s, as well as FSIS’ compliance with HACCP requirements.
To obtain the broadest results possible, in addition to assessing the
SSOP plans and HACCP implementation, we plan to expand our testing
to include the FSIS Microbiological Testing Program and the controls
over the sampling and test results of meat and poultry products under
the HACCP system.

OIG is the investigative arm for all of USDA; in certain cases rapid
response is critical. Most notably, we have responded immediately to a
number of cases involving the intentional contamination of meat
products consumed by the public. In addition to meat, OIG has criminal
enforcement authority over cases involving the processing and sale of
adulterated poultry and egg products. In fact, OIG has the authority for
criminal enforcement related to the regulation, distribution, and
purchase of products for all USDA programs having to do with food.
This includes programs that USDA’s Agricultural Marketing Service
administers to purchase food for schools.

OIG has developed the law enforcement expertise that is vital to an
immediate, effective, and efficient response to critical incidents through
decades of experience conducting criminal investigations of crimes
against U.S. agriculture. Case histories of alleged biological

                                    3
contamination of meat products, and the willful processing and sale of
adulterated meat, poultry, and egg products by corporate members of
the food industry exemplify this expertise. These incidents impact the
health and safety of consumers, including children and elderly in day
care centers, and our armed forces stationed in the United States and
abroad. OIG is working to position its audit and investigative resources
to provide critical incident emergency law enforcement response to
these threats of criminal acts impacting the integrity of U.S. agriculture.

Emergency Response Teams of auditors and investigators are ready to
respond to all emergency situations. These teams recently deployed to
several cities in the United States to investigate real or threatened
adulteration of meat with everything from E. coli to disinfecting
compounds--possibly bleach or ammonia--to HIV-infected human blood.
Some adulterated products--rancid meat, for example--were destined for
children in the National School Lunch Program or soldiers on military
bases, and in certain cases ended up there. We are currently
monitoring the FSIS response to listeria outbreaks at several locations
across the Nation.

In December, a threat of biological contamination using HIV-infected
blood in a Milwaukee, Wisconsin, meat plant activated the immediate
deployment of 30 OIG special agents (including 8 bilingual agents to
converse with Spanish-speaking plant employees) and 4 auditors to the
scene to determine the validity of the threat and to identify those
responsible. Personnel from FSIS assisted in this investigation, with
FSIS staff taking the lead role in ensuring that viral contaminants had
not been introduced into the food chain. Our investigative efforts to
resolve this bio-terrorism threat continue. Approximately 580 interviews
have been conducted to date. I am pleased to be able to report that
extensive testing of samples taken from the plant has not indicated the
presence of human HIV-infected blood.

In another case, in late July 1997, 15 individuals in Colorado consumed
ground beef products and became ill. Health officials determined that
these illnesses were caused by their having consumed ground beef that

                                     4
was adulterated with E. coli 0157:H7 bacteria. The individuals had
purchased the beef product at different locations throughout Colorado.

Scientific testing by FSIS determined that a Nebraska meat processing
plant had produced the beef product that was the cause of the E. coli
outbreak. OIG immediately sent an Emergency Response Team of
investigators and auditors to the Nebraska plant to investigate. By
August 1997, the recall consisted of approximately 25 million pounds of
potentially tainted beef, at that time the largest quantity of meat product
ever recalled. OIG investigation established the critical time during
which the tainted meat was processed, and recall of all the meat
processed at that plant during that period began. Shortly after the
recall, the plant was closed and sold. The meat plant and two company
officials were criminally indicted in December, the officials for their part
in misleading investigators during our attempt to determine the source
of the E. coli outbreak. These misrepresentations resulted in the delay
of identification of potentially contaminated meat, thus increasing the
threat to consumers. Trial for the two company officials is pending.

We are currently investigating another significant case involving a meat
company alleged to have intentionally, for profit motives, adulterated
and misbranded beef and pork products, which have also tested
positive for E. coli 0157:H7. Approximately 4.4 million pounds of this
company’s meat product containing ground pork or ground beef is
under voluntary hold at various school districts, prisons, military
institutions, and other facilities. In addition, another 1.6 million pounds
of this product is being retained or detained at other facilities.

We have also investigated other cases in which the health and safety of
the public were at serious risk. In Buffalo, New York, three feed
company employees pled guilty to Federal charges and await
sentencing for their role in selling canned meat product to the public
which was unfit for human consumption. This product was being
shipped from a Canadian company to the feed company to be used as
animal food. In a second case in New York, an FSIS inspector pled
guilty in Federal court and was sentenced to 6 months in prison for

                                     5
accepting bribes from the owner of a slaughter facility to permit the
slaughter of livestock, including 3-D (dead, diseased, or dying) cattle,
without the benefit of inspection. In Pennsylvania, the owner of a
slaughterhouse pled guilty to conspiracy, while three company
employees pled guilty to violating the Federal Meat Inspection Act.
These individuals were caught slaughtering 3-D cattle after the FSIS
inspector had left the premises and then commingling the unwholesome
product with meat that had been inspected.

In addition to adulteration of meat products, food safety concerns also
encompass other types of food. In March 1997, an outbreak of the
hepatitis A virus in Michigan sickened approximately 190 school
children. Subsequent investigation by the Centers for Disease Control
and Prevention and the Food and Drug Administration determined that
the hepatitis A outbreak was associated with frozen strawberries served
to school children as part of the USDA School Lunch Program. The
frozen strawberries came from a San Diego-based food
broker/processing company. The company, through three other
brokers, supplied 1.7 million pounds of frozen strawberries through
USDA contract to the School Lunch Program, for which the brokers
received more than $900,000 from USDA.

The USDA contract called for frozen strawberries "originating from
crops 100-percent grown, processed, and packed in the United States."
The company’s president falsified a certification to USDA that all of the
1.7 million pounds of frozen strawberries were 100-percent grown and
packed in the United States. In fact, OIG investigation determined that
at least 99 percent of the product supplied to USDA was grown in
Mexico.

The food processing company and its president/owner pled guilty to
charges of submitting false claims to USDA in relation to the
substitution of Mexican strawberries for U.S. domestic strawberries in
the USDA School Lunch Program. The president/owner was sentenced
to 10 months in prison and fined $13,000. The company was ordered to
pay $200,000 in fines, $150,000 in restitution to USDA, and $1,300 in

                                    6
court penalties. In addition, the company agreed to a $1.3 million civil
settlement. The former sales manager of the company was placed on
probation for 5 years after he pled guilty to conspiracy.

The increasing threat to the wholesomeness of domestic and exported
food requires not only vigilance but also advance preparedness, and
could involve preemptive undercover operations. Profit-motivated
criminal activity that threatens the food industry can cause economic
disruption while victimizing innocent members of the industry.
Likewise, threats of criminal adulteration and biological contamination
of food products from outside the food industry for extortion or
ideological motives can victimize and disrupt the Nation’s food
production and distribution systems. These threats must be resolved
through a vigilant, established emergency law enforcement and health
and safety response.

Recent governmental assessments of the threat of biological terrorism
omitted agriculture as a potential target. American agriculture is a
major part of the critical infrastructure of the United States and is highly
susceptible to biological threats. This is of major national concern
when you consider that American agriculture makes up nearly 15
percent of our gross domestic product and generates $1 trillion in
economic activity each year. Given these concerns, we are taking the
necessary steps to address this issue through the creation of Critical
Incident Response Teams which respond decisively to such threats.

We also need to be mindful of the economic impact caused by closing a
major food processing plant. To our knowledge, the Milwaukee plant I
mentioned earlier had violated no laws and had been successfully
implementing HACCP inspection procedures. Still, its production line
was successfully halted by outside forces, millions of pounds of its
product were put on hold, and the facility was temporarily shut down.
OIG’s rapid response and deployment of considerable staff resources
not only helped to protect the health and safety of consumers, but it
also allowed the plant to reopen with a minimum production disruption
and lost profit, as opposed to an indefinite and costly closure.

                                     7
                        FOOD STAMP PROGRAM

Moving to our second main topic of discussion, the Food Stamp
Program (FSP) has been a continuing priority for us for a number of
years. This important program helps put food on the table for some 9
million households and more than 20 million individuals each day. It
provides low-income households with paper coupons or electronic
benefits they can use like cash at most grocery stores to ensure they
have access to wholesome food.

Because of the size, importance, and vulnerability of FSP, we devote a
significant portion of our audit and investigative resources to this area.
We are also maintaining a keen focus on the development of Electronic
Benefits Transfer (EBT) systems to deliver FSP benefits. Under EBT, a
recipient uses a debit card at the grocery store rather than food stamps.
When the sale is complete, the computer system automatically deducts
the amount of the sale and keeps track of food stamp benefits
remaining. We want to be sure EBT systems are implemented and
working properly because EBT has more built-in safeguards than paper
food stamps. In addition, I’ll touch on household and retailer eligibility,
but first, I want to discuss a major benefit resulting from Welfare
Reform.

Operation Talon

"Operation Talon" is an OIG law enforcement initiative led by my office
and carried out in conjunction with State and local law enforcement
agencies and State social service agencies across the country.
Operation Talon was made possible by the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996, generally known as
Welfare Reform. As you know, that legislation allows law enforcement
fugitive records to be matched with social service agencies’ food stamp
records. The information is used by law enforcement officers to locate
and apprehend potentially dangerous and violent fugitive felons who
may also be illegally receiving food stamps.

                                     8
Operation Talon has been the most successful initiative we have yet
undertaken. Thus far, Talon has resulted in the arrest of more than
3,650 fugitive felons. These criminals include 26 wanted for murder or
attempted murder, 11 for rape or attempted rape, 8 for kidnapping, and
over 1,200 for assault, robbery, or drug offenses. Operation Talon has
also brought into custody 18 fugitive felons wanted for child
molestation. Noteworthy is that 2 of those 18 have also been charged
with violation of state "Megan’s Law" statutes, which require sex
offenders to register at their place of residence. In one case, OIG and
the Hudson County, New Jersey, Sheriff’s Department arrested a
convicted child molester for failing to register as a sex offender. The
fugitive had moved without notifying appropriate State officials, and
eluded the authorities until he provided his new address to participate
in the Food Stamp Program and was found through an Operation Talon
match.

Operation Talon is an ongoing initiative, and we are planning future
arrest operations in many parts of the country. One recent success was
in Austin, Texas, where our special agents worked with Texas law
enforcement officials in apprehending over 75 fugitive felons. We have
additional warrants and anticipate the arrest of numerous other fugitive
felons.

Food Stamp Trafficking

We continue to combat food stamp trafficking, whether it be through the
traditional coupons or EBT. During the last year, for example,
investigations of large-scale fraud operations in New York, Philadelphia,
and Detroit have thus far identified 55 store owners and employees
involved in the unlawful acquisition of some $99 million in food stamp
benefits. This has resulted in the arrest and conviction of many of
these individuals, some of whom have been sentenced to prison terms
and ordered to pay millions of dollars in restitution.




                                    9
After an OIG investigation in Beltsville, Maryland, a prominent neonatal
physician, with a $300,000 per year income, and his wife pled guilty to
welfare fraud. They had collected approximately $150,000 in fraudulent
welfare benefits from State and Federal agencies from 1993 through
1997. These benefits included food stamps, aid for dependent children,
general welfare, and educational grants. The wife used two different
Social Security numbers to perpetrate the fraud, one to collect monthly
benefits from welfare agencies and the other for tax purposes to report
the family’s substantial income. Three of the couple’s children assisted
in the fraud by applying for, and obtaining, portions of the illegal
benefits.

As noted earlier, one improvement we are delighted to see is the advent
of Electronic Benefits Transfer. USDA has been at the forefront of EBT
development over the years. Today, with the use of the EBT debit
cards, over 50 percent of food stamp benefits are disbursed via EBT
and not paper food stamps--36 States and the District of Columbia have
operational EBT systems, with 29 States operating statewide. All States
must be EBT-operational by the year 2002.

EBT has had an impressive impact on identifying individuals and
retailers who are committing fraud in the Food Stamp Program. While
trafficking of benefits has not been eliminated by EBT, we believe the
number of individuals involved in street trafficking has been reduced.
EBT benefits are less negotiable "on the street" and thus are less likely
to be used as a "second currency." Unlike what we found with the
trafficking of food stamp coupons, we have not found any significant
direct exchange of EBT benefits for illegal drugs. Instead, the EBT
recipients are generally exchanging their benefits with retailers or their
employees for cash and nonfood items.

We can use information available under EBT to identify and prosecute
those who engage in illegal transactions. While paper coupons are
generally not traceable to individual recipients, the EBT system records
the date, time, amount, recipient, and store involved in illegal trafficking.
The Food and Nutrition Service (FNS) is also using EBT data to

                                     10
disqualify violating retailers, and State authorities are using information
obtained from EBT records to disqualify large numbers of recipients
who have sold their benefits.

EBT is a more cost-effective delivery system than coupons. To begin
with, multiple Government programs can participate. It is also less
vulnerable to fraud, waste, and abuse than traditional paper delivery
systems, while improving the quality of service to program recipients by
empowering them. EBT provides an audit trail of all transactions and
limits access of program benefits to authorized recipients by requiring a
EBT card and personal identification number.

We assist EBT vendors with security matters and in developing fraud
profiles to detect fraud early, thus minimizing losses. EBT enables us
to readily identify suspicious activities and individuals. For one
example, starting in October 1995, OIG began investigating suspicious
transactions involving EBT food stamp benefits in New Jersey. The
investigation focused on authorized retailers operating in Essex and
Hudson Counties as part of the pilot project for EBT implementation in
New Jersey.

Investigators identified 10 authorized stores as having engaged in food
stamp fraud. Those stores redeemed an estimated $9.5 million in food
stamp benefits during the period of investigation, of which $6 million is
alleged to have been involved in fraudulent transactions. In addition,
approximately 1,000 individual food stamp benefit recipients had
engaged in suspect transactions larger than $1,000. Sixteen individuals
who owned and/or operated the 10 stores were indicted for conspiracy,
food stamp fraud, and fraud in connection with electronic access
devices. Seizure warrants netted $75,000 in cash, and assets of real
property were seized.

Not only has OIG been supportive of EBT from an investigative
perspective, we have taken an active role in monitoring and reviewing
currently operating EBT systems. By being in on the front end of the
implementation of these systems, we can identify and report on

                                    11
problems that need to be addressed early. This OIG review provides
program managers with the assurance that their systems are operating
as intended.

Security policies and control processes in the 14 States we have
reviewed were adequate to ensure timely and accurate availability of
FSP benefits to recipients and payments to retailers. The operational
areas we have reviewed include reconciliation of FSP issuance data,
help desk operations, fraud detection, EBT management reports, access
to and security over the EBT system, and interstate transactions. The
Food and Nutrition Service’s oversight of EBT has continued to evolve,
and some areas need enhanced controls. They include strengthening
procedures for authorizing and reviewing continued need for access to
the EBT system, as well as establishing procedures for reconciling
issuance data between the State, the EBT processor, and Federal
agencies.

We have continued to work with EBT processors to ensure accurate
information is submitted to the processor and to Federal agencies (FNS
and the Federal Reserve Bank). This has been accomplished through
reconciliations of issuance and transaction data. A limited number of
EBT processors support a large number of State EBT systems, whose
data Federal agencies rely upon. We have led an effort to develop audit
review guidelines of EBT processor operations to ensure reviews are
more efficient and cost-effective.

In addition, we have performed reviews of both recipient and retailer
eligibility. Audits and investigations have found many recipients and
retailers ineligible to participate in the program. In our vigilance of
retailer integrity, we conducted a "sweep" of over 5,000 stores in 7
different areas in 1995. During the sweep, we found 858 retailers
ineligible to participate in the program, and another 450 questionable.
As a result of our work, FNS removed a large number of stores from the
program. We plan to review contracts FNS has with private vendors to
conduct onsite retailer visits. We also plan to conduct additional
sweeps of stores to determine eligibility.

                                  12
During a recent investigation in Atlanta, an OIG special agent read a
short newspaper article about a local resident’s past felony conviction.
In 1985, while living in Detroit, the individual and two other male
subjects had entered the home of a 65-year-old woman in search of
money and jewelry. While there, the individual and his accomplices
beat, bound, and shot the woman in the back of the head. He was
convicted of second degree murder and served 8-1/2 years in prison.
The agent recognized this individual as participating in FSP as an
authorized retailer. FNS records revealed that the individual had falsely
stated on his store application that he had no criminal record.
Additional information showed the individual, who is from Iraq, should
have been deported when he was freed from prison. An Assistant U.S.
Attorney has agreed to charge the individual for making a false
statement on his retailer application, as well as the immigration
violation.

We believe that participation as an FNS-authorized retailer should be
regarded as a privilege and not a right. In February 1995, during my
testimony to the Committee on Agriculture concerning enforcement of
the Food Stamp Act, I proposed a 10-point package of legislative and
regulatory changes to enhance the integrity of the Food Stamp
Program. Since that time, we have seen many of our proposals come to
fruition. A few of them, however, have not been enacted. These
include requiring stores to either be in the retail food business for a
minimum of 1 year prior to authorization or requiring them to obtain a
surety bond, and charging stores a licensing fee to participate in the
program. Implementation of these recommendations would have a
significant positive impact and enhance the integrity of the program.
We will continue to pursue the necessary legislative changes to
implement them.

This concludes my statement, Mr. Chairman. I thank you again for the
opportunity to address the Committee, and I would be pleased to
answer any questions you or other members of the Committee might
have.


                                   13
